                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM

     TO: AIGI      File Number: I96010003                                        Date: 05 March 2002


Il   Subject: Closeout Memo                                                                Page 1 of 1


          There was no closeout written at the time this case was closed. The following information was
          extracted from the file in conformance with standard closeout documents.

          Our office was informed that the awardee' was alleged to have committed embezzlement, theft, or
          diversion of grant funds. The PI on the NSF grant alleged that $2000 had been mischarged to his
          grant by the awardee's business office. As a result of our inquiry, the business office credited
          $18 16.16 to the grant and agreed to monitor future expenditures.

          Accordingly this case is closed.
